OIG Audit Report GR-40-00-009
Office of Community Oriented Policing ServicesGrant to the Florida Highway Patrol

Audit Report GR-40-00-009
March 2000Office of the Inspector General

EXECUTIVE SUMMARY
The Office of the Inspector General, Audit Division, has completed an audit of an Accelerated Hiring, Education, and Development (AHEAD) grant awarded by the Office of Community Oriented Policing Services (COPS) to the Florida Highway Patrol (grantee).  The purpose of the grant was to enhance community policing.  COPS awarded the grantee $3,150,000 to hire 42 full-time officers. 
	
	We reviewed the grantee's compliance with seven essential grant conditions.  We found the grantee's budgeting for officers, hiring of officers, retention of officer positions, and community policing practices to be acceptable.  However, we found weaknesses in other areas as identified below.  As a result, we question $280,232 of the $3,010,252 reimbursed to the grantee.  Moreover, the AHEAD grant ended on September 30, 1998 and final payment was made to the grantee on October 29, 1998.  However, as of April 20, 1999, the financial records provided by the Office of Justice Programs (OJP) showed the remaining balance of $139,740 had not been deobligated.  Accordingly, we recommend the $139,740 be deobligated and put to better use.   We found the grantee: 

Claimed more than the Federal share percentage of allowable costs approved by OJP in the financial clearance memorandum. 

	Submitted several program and financial reports late.

These items are discussed in greater detail in the Findings and Recommendations section of the report.  Our audit objectives, scope and methodology appear in Appendix I.